WAIVER

SUPREME COURT OF THE UNITED STATES

No. |20-8073

Damari Jennings { ‘Louisiana

(Petitioner) Vv. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© _ {am filing this waiver on behalf of all respondents.
Oo I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. ‘Phe system will prompt you to enter
your appearance first.)

[am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to; Supreme Court,
Attn: Clerk’s @ffice, 1 First Street, NE, Washington, D.C. 20543).

ant
Signature: - Ze >

Date: lenerat |

 

 

(Type or print) Name lShae McPhee

 

 

Om Ov. O ws. — O Mass
Fim {Louisiana Department of Justice - ; —_ _
Adios [1885 N. Third Street oo
City & State ‘Baton Rouge, LA - oe — / Zip [roso2 |
Prone (225-9380779 ‘wei lmophees@agilouisianagoy

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the

name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required
Damari Jennings

ce:
